No. 20-1008
IN THE

Supreme Court of the United States
State Farm Life Insurance Co.,

Petitioner,
v.
Michael G. Vogt on behalf of himself and others
similarly situated,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5(b), I certify that the accompanying Respondent’s Brief in Opposition to Petition for Writ of Certiorari has been served on this
date on all parties required to be served, by electronic (email) delivery in accordance with
the Court’s Order dated April 15, 2020, all parties having agreed to such service for documents filed prior to the Court’s ruling on the petition for writ of certiorari. Service has been
made upon the following:
KRISTIN A. LINSLEY
GIBSON, DUNN & CRUTCHER LLP
555 Mission Street
San Francisco, CA 94105
klinsley@gibsondunn.com
KATHERINE C. YARGER
GIBSON, DUNN & CRUTCHER LLP
1801 California Street
Denver, CO 80202
kyarger@gibsondunn.com
Executed on March 12, 2021

THEODORE J. BOUTROUS

Counsel of Record

GIBSON, DUNN & CRUTCHER LLP
333 South Grand Avenue
Los Angeles, CA 90071
tboutrous@gibsondunn.com

__________________________
BRADLEY T. WILDERS
STUEVE SIEGEL HANSON LLP
460 Nichols Road, Suite 200
Kansas City, MO 64112
Telephone: (816) 714-7100
wilders@stuevesiegel.com

